TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Improvements Are Needed to Ensure the
                      Use of Modernization Applications Is
                              Effectively Audited



                                      September 29, 2006

                              Reference Number: 2006-20-177




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                September 29, 2006


 MEMORANDUM FOR CHIEF INFORMATION OFFICER
                CHIEF, MISSION ASSURANCE AND SECURITY SERVICES

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Improvements Are Needed to Ensure the Use of
                                Modernization Applications Is Effectively Audited
                                (Audit # 200620003)

 This report presents the results of our review to determine whether the Internal Revenue
 Service’s (IRS) modernized systems generate audit logs that are saved and analyzed to detect
 unauthorized accesses to modernization applications.

 Impact on the Taxpayer
 Audit trails1 for the IRS’ modernized systems are not being adequately collected, reviewed, or
 retained. Consequently, unauthorized access and theft of taxpayer records may be occurring
 without being detected, possibly resulting in theft of taxpayer identities. In addition, fraudulent
 transactions and intrusions on IRS systems used to administer tax laws could go undetected.

 Synopsis
 The IRS has two approaches for collecting audit trails for the computers supporting its Business
 Systems Modernization effort. Audit trails for the Customer Account Data Engine (CADE)2 are
 stored internally. Audit trails for all other modernized systems are stored centrally and reviewed
 in the Security Audit and Analysis System (SAAS). Neither approach is working effectively.



 1
     An audit trail is a chronological log of activities on a computer system.
 2
     The CADE is the foundation for managing taxpayer accounts in the IRS’ modernization effort.
                   Improvements Are Needed to Ensure the Use of Modernization
                               Applications Is Effectively Audited



The IRS is not monitoring audit trails on the CADE. While the CADE currently stores and
processes only a small fraction of all taxpayer returns, its workload is expected to greatly
increase in the next few years. This will place added importance on the IRS’ ability to monitor
accesses to the sensitive taxpayer records stored in the CADE. We believe CADE transactions
are not reviewed because only a limited number of users have permission to access the system.
However, these users have powerful access privileges, which could enable them to steal taxpayer
information and take action to disrupt computer operations with little chance of detection.
The SAAS audit trails of user and system activities on modernized systems are not being
adequately monitored. User activity audit trails on modernized systems are not being reviewed
by the IRS business units and the Treasury Inspector General for Tax Administration (TIGTA)
for two reasons. First, while audit trail data are being collected by the SAAS, the data are not
accurate, reliable, and complete. We reviewed over 3 million audit trail records and found
48 percent of the places for data required by IRS policy were missing data or contained
inaccurate information. Second, even if the SAAS audit trails were usable, reports and functions
for reviewing them are not yet available, making it unlikely SAAS users could identify
inappropriate activity on modernized systems.
System activity audit trails are not being adequately reviewed by the Computer Security Incident
Response Center,3 to identify security-related events. These audit trails have not been delivered
timely and have not been completed sufficiently.
The underlying reason why audit trails on the SAAS are not adequately reviewed is the
inadequacy of SAAS system requirements, which are used to identify the System’s features and
capabilities. Although the IRS accepted the SAAS in Fiscal Year 2002, the system requirements
are still inadequate because much of the SAAS development effort to date has been focused on
replacement of the Audit Trail Lead Analysis System.4 This replacement has been a TIGTA and
IRS priority because the System is aging. However, until all SAAS users emphasize the need to
review audit trail data on modernized systems, sufficient priority will not be given to the
development of SAAS audit trails.
Our results indicate the problems with the SAAS we reported5 in August 2004 have not been
adequately addressed, despite claims by the IRS that the SAAS has been functioning. In
April 2005, the IRS responded to questions from the Senate Appropriations Committee that the
“SAAS is effectively managing audit trail data for modernization systems.” We again reported6


3
  This Center was designed to ensure the IRS has a team of capable “first responders” who are organized, trained,
and equipped to identify, contain, and eradicate cyber threats targeting IRS computers and data.
4
  This is an IRS system that aids the TIGTA in researching unauthorized access of taxpayer data by IRS employees.
5
  The Audit Trail System for Detecting Improper Activities on Modernized Systems Is Not Functioning (Reference
Number 2004-20-135, dated August 2004).
6
  Security Controls Were Not Adequately Considered in the Development and Integration Phases of Modernized
Systems (Reference Number 2005-20-128, dated August 2005).
                                                                                                                2
                Improvements Are Needed to Ensure the Use of Modernization
                            Applications Is Effectively Audited



problems with the SAAS in August 2005. In its response to that report, the IRS disagreed with
our conclusion that audit trails for IRS modernized systems were not functioning. IRS
management explained the SAAS receives and processes audit trail transactions daily from
several modernization applications and the data could be accessed through queries or reports.

Recommendations
We recommended the Chief, Mission Assurance and Security Services (MA&SS), establish a
review process for CADE audit trails and ensure they are retained. For the SAAS, the Chief
Information Officer should modify modernized system audit trails to comply with SAAS
standards and capture information needed by user organizations. In addition, the Chief,
MA&SS, should reassess the user and system requirements for the SAAS, including the control
weaknesses identified in this report, and ensure the requirements are assigned a completion date.
Once this is complete, SAAS procedures and processes should be reevaluated to ensure the new
SAAS requirements are incorporated.

Response
The IRS agreed with our findings and recommendations. The MA&SS organization will
establish an enterprise process for reviewing the audit trails of all IRS legacy (current) and
modernized applications and systems, including CADE audit trails. In addition, it will establish,
in conjunction with the Chief Information Officer, a viable retention policy for CADE audit trails
that is consistent with established IRS policies. For the SAAS, the MA&SS organization will
reassess the requirements for SAAS audit trails, including identifying all user requirements and
the resulting SAAS system requirements needed to achieve them. The IRS will provide a Project
Plan that includes development of change requests for modification of modernized applications
to provide audit trail data to, and in the correct format for, the SAAS based on the reassessed
SAAS requirements. The Plan will include expected implementation dates for each
modernization application and will be based on funding and resource availability. Once SAAS
requirements are reassessed, the MA&SS organization will establish procedures to ensure audit
trails are properly reviewed and will assign staff to monitor failed audit trail records.
Management’s complete response to the draft report is included as Appendix V.

Office of Audit Comment
The IRS provided an implementation date of October 2008 for its corrective action addressing
our recommendation to modify modernized system audit trails to comply with SAAS standards
and capture information needed by user organizations. We recognize the difficult task the IRS
faces in modifying modernized system audit trails to provide usable information, given their
current state. However, this implementation date will leave the IRS without usable audit trails

                                                                                                  3
                Improvements Are Needed to Ensure the Use of Modernization
                            Applications Is Effectively Audited



for more than 2 years. With this response, the IRS is accepting the risk that unauthorized access
to taxpayer information on modernized systems may occur and not be detected.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                                    4
                       Improvements Are Needed to Ensure the Use of Modernization
                                   Applications Is Effectively Audited




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Customer Account Data Engine Audit Trails Are Not
          Being Adequately Monitored........................................................................Page 4
                    Recommendations 1 and 2: ..............................................Page 5

          Security Audit and Analysis System Audit Trails Are Not
          Being Adequately Monitored........................................................................Page 6
                    Recommendation 3:........................................................Page 10

                    Recommendations 4 and 5: ..............................................Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Additional Information on the Security Audit and
          Analysis System Audit Trail.........................................................................Page 17
          Appendix V – Management’s Response to the Draft Report .......................Page 21
        Improvements Are Needed to Ensure the Use of Modernization
                    Applications Is Effectively Audited




                       Abbreviations

CADE               Customer Account Data Engine
CSIRC              Computer Security Incident Response Center
IDRS               Integrated Data Retrieval System
I-EIN              Internet Employer Identification Number
IFS                Integrated Financial System
IRFOF              Internet Refund/Fact of Filing
IRS                Internal Revenue Service
MA&SS              Mission Assurance and Security Services
MeF                Modernized e-File
SAAS               Security Audit and Analysis System
TIGTA              Treasury Inspector General for Tax Administration
UNAX               Unauthorized accesses and inspections of taxpayer records
                   Improvements Are Needed to Ensure the Use of Modernization
                               Applications Is Effectively Audited




                                           Background

Internal Revenue Service (IRS) procedures state that each of the IRS’ computer systems is
required to collect and maintain adequate audit trail information and that this information is to be
timely reviewed. An audit trail is defined as a chronological
record of system activities that allows for the reconstruction,    An audit trail is a chronological
review, and examination of a transaction from inception to         record of system activities that
final results. Audit trails can also be used to diagnose            allows for the reconstruction,
computer problems because they capture all user and system          review, and examination of a
activities associated with a transaction and provide                         transaction.
documentation that identifies what has been done.
The National Institute of Standards and Technology1 states that audit trails can provide a means
to help accomplish several security-related objectives, including:
    •   Individual accountability – Enables managers to identify and provide information about
        users suspected of improper modification of data (e.g., introducing errors into a
        database).
    •   Reconstruction of events – Assesses damage to a system by pinpointing how, when, and
        why normal operations ceased.
    •   Intrusion detection – Identifies attempts to penetrate a system and gain unauthorized
        access.
    •   Problem analysis – Provides online tools to help identify problems other than intrusions
        as they occur.2
For the IRS, audit trails on modernized systems are also needed to detect unauthorized access
attempts, successful accesses of its most critical information, and attacks on its systems. In
particular, audit trails are used to identify willful unauthorized accesses and inspections of
taxpayer records (UNAX). Identifying UNAX violations became more important with the
passage of the Taxpayer Browsing Protection Act of 1997,3 which states the willful unauthorized
access or inspection of taxpayer records is a crime punishable upon conviction by fines, prison
terms, and termination of employment.

1
  The National Institute of Standards and Technology, under the Department of Commerce, is responsible for
developing standards and guidelines, including minimum requirements, for providing adequate information security
for all Federal Government agency operations and assets.
2
  The National Institute of Standards and Technology Information Technology Laboratory Computer Security
Bulletin published in March 1997.
3
  26 U.S.C.A. §§ 7213, 7213A, 7431 (West Supp. 2003).
                                                                                                         Page 1
                    Improvements Are Needed to Ensure the Use of Modernization
                                Applications Is Effectively Audited



In addition to identifying UNAX violations, audit trails can be used to identify whether IRS
financial information and transactions have been compromised. Such compromise could result
in corruption of financial data and limit the IRS’ ability to conduct business. Compromise of
financial information could also result in fraudulent transactions, such as unauthorized payments.
However, none of these events can be detected if audit trails have not been designed to capture
key information and are not retained for a sufficient period of time. Also, management must
have a formal process for reviewing audit trail reports to effectively respond to system events.
The IRS has two approaches for collecting audit trails for the computers supporting its Business
Systems Modernization effort. For the Customer Account Data Engine (CADE), audit trails are
stored internally in the system’s database. The CADE is the foundation for managing taxpayer
accounts in the IRS’ Business Systems Modernization effort and will eventually house taxpayer
accounts and tax return data for more than 135 million individual and business taxpayers. The
CADE will incrementally replace the existing IRS Master File.4 The current release of the
CADE processes selected data for over 1.4 million single filers with no dependents who filed an
Income Tax Return for Single Filers and Joint Filers With No Dependents (Form 1040EZ) in
Calendar Year 2005.
Audit trails for all other modernized systems are centralized in the Security Audit and Analysis
System (SAAS). See Appendix IV for a list of these systems. The SAAS was initially built by
the IRS’ PRIME contractor as part of the Business Systems Modernization effort and was
accepted by the IRS in 2002. The SAAS is designed to gather user and system audit trail
information from these systems and store this information in a central database that should be
accessed and used by the following customers:
    •   Managers from the IRS business units, who should review user audit trails for
        questionable activities of their employees on IRS modernized systems, by reviewing the
        transactions from those systems. Potential UNAX violations and fraudulent transactions
        are forwarded to the Treasury Inspector General for Tax Administration (TIGTA) for
        investigation.
    •   TIGTA investigators, who are responsible for detecting and investigating UNAX
        violations in accordance with the Taxpayer Browsing Protection Act of 1997. The
        TIGTA uses various techniques to analyze audit trail data to identify potential UNAX
        violations.
    •   The Computer Security Incident Response Center (CSIRC)5, which should review system
        audit trail data generated by operating systems, databases, and applications of

4
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
5
  The CSIRC was designed to ensure the IRS has a team of capable “first responders” who are organized, trained,
and equipped to identify, contain, and eradicate cyber threats targeting IRS computers and data.
                                                                                                           Page 2
                   Improvements Are Needed to Ensure the Use of Modernization
                               Applications Is Effectively Audited



        modernized systems to detect and respond to computer security incidents targeting the
        IRS’ enterprise information technology assets.
This review was performed in the Mission Assurance and Security Services (MA&SS)
organization and the Modernization and Information Technology Services organization, at the
Enterprise Computing Center – Martinsburg,6 in Kearneysville, West Virginia, and in the
MA&SS organization in Lanham, Maryland, during the period October 2005 through
March 2006. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




6
  IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
                                                                                                      Page 3
                 Improvements Are Needed to Ensure the Use of Modernization
                             Applications Is Effectively Audited




                                 Results of Review

The IRS is not adequately collecting, reviewing, or retaining audit trail data from its modernized
systems. Without adequate processes in these areas, unauthorized accesses or security intrusions
could be occurring without being detected.

Customer Account Data Engine Audit Trails Are Not Being Adequately
Monitored
The IRS is properly monitoring audit trails to identify attempts by unauthorized persons to access
the CADE, and any security violations noted are sent to appropriate management officials for
review and certification. However, once a user is authorized to access the CADE, his or her
actions are not monitored. The lack of monitoring provides no assurance that an authorized user
is accessing CADE data for official business purposes only.
While the CADE currently stores and processes only a small fraction of all taxpayer returns, its
workload is expected to greatly increase in the next few years, as shown in Table 1. This growth
places added importance on the IRS’ ability to monitor accesses to the sensitive taxpayer records
stored in the CADE. If the IRS cannot review audit trail information for the current volume of
returns, its ability to adequately and effectively review audit trails will diminish when the
volume increases in future years.
       Table 1: Estimated Number of Returns to Be Processed by the CADE
              Year       Estimated Number of         Year       Estimated Number of
                               Returns                                Returns
              2005         1,423,417 (Actual)       2009              70 million
              2006              4 million           2010              90 million
              2007             33 million           2011             100 million
              2008             50 million          2012               135 million
             Source: Customer Relationship Management Executive Steering Committee, approved
             October 18, 2005.

The IRS has not emphasized the need to monitor audit trails on the CADE because it is updated
primarily through input of data from other IRS systems. Consequently, only a limited number of
users have direct access to the CADE application. The CADE is currently accessible by only
39 persons including IRS computer personnel, contractors, and TIGTA personnel. However,
these users have powerful access privileges that could enable them to steal taxpayer information
with little chance of detection. By not reviewing user transactions in the CADE’s audit trails, the
IRS cannot be assured that security violations are not occurring.
                                                                                               Page 4
                  Improvements Are Needed to Ensure the Use of Modernization
                              Applications Is Effectively Audited



Also, CADE audit trails are not being sufficiently retained. Currently, audit trails are retained
for 30 calendar days, a retention period based on available storage space. In comparison, SAAS
audit trail data are required to be retained for 6 years.
We previously identified the CADE audit trail review and retention issues in our August 2005
report,7 but at that time, CADE audit trails were retained for only 1 to 2 calendar days and were
not being reviewed. We recommended CADE audit trail data be retained and reviewed to detect
unauthorized accesses. The IRS disagreed with this recommendation, stating that log and audit
files used by CADE system programmers are established for recovery and diagnostic purposes
and do not capture data related to unauthorized access. In response, we commented that we
continue to believe audit trail information for the CADE should be retained and reviewed. The
CADE contains tax information for over 1.4 million returns that could be accessed by some IRS
employees for unauthorized purposes, potentially resulting in identity thefts. Therefore, audit
trail information must be maintained to comply with Department of the Treasury requirements.

Recommendations
Recommendation 1: To ensure CADE audit trails are reviewed, the Chief, MA&SS, should
establish a review process for CADE audit trails. Such a process will aid in current reviews and
position the IRS to perform future reviews when the amount of taxpayer information residing in
the CADE is significantly larger.
        Management’s Response: IRS management agreed with this recommendation. The
        MA&SS organization will establish an enterprise process for reviewing the audit trails of
        all IRS legacy (current) and modernized applications and systems, including CADE audit
        trails.
Recommendation 2: To ensure CADE audit trails are sufficiently retained, the Chief,
MA&SS, and the Chief Information Officer should establish a viable retention policy for CADE
audit trails, mirroring, where possible, that of other systems with taxpayer information.
        Management’s Response: IRS management agreed with this recommendation. The
        MA&SS organization, in conjunction with the Chief Information Officer, will establish a
        viable retention policy for CADE audit trails that is consistent with established IRS
        policies governing records management and retention standards for systems with
        taxpayer information.




7
 Security Controls Were Not Adequately Considered in the Development and Integration Phases of Modernized
Systems (Reference Number 2005-20-128, dated August 2005).
                                                                                                     Page 5
                   Improvements Are Needed to Ensure the Use of Modernization
                               Applications Is Effectively Audited



Security Audit and Analysis System Audit Trails Are Not Being
Adequately Monitored
The three primary users of the SAAS (the IRS business units, TIGTA, and CSIRC) are
performing either no reviews or limited reviews of user and system activity on modernized
systems, as recorded in the systems’ audit trails. As a result, possible UNAX violations, other
inappropriate accesses, or security intrusions may be occurring without being identified.
An underlying reason for the lack of reviews is inadequate requirements for the SAAS, which are
used to identify features and capabilities for the System. SAAS requirements have not been
adequately identified because much of the SAAS development effort to date has been focused on
replacement of the Audit Trail Lead Analysis System, which is currently used by the TIGTA to
identify potential UNAX violations on the Integrated Data Retrieval System (IDRS).8 The
replacement of the Audit Trail Lead Analysis System has been a TIGTA and IRS priority
because the System is aging. Until all SAAS users emphasize the need to review modernized
system audit trails, sufficient priority will not be given to the development of SAAS audit trails.
Our results indicate the problems with the SAAS we reported9 in August 2004 have not been
adequately addressed despite claims by the IRS that the SAAS has been functioning. In
April 2005, the IRS responded to questions from the Senate Appropriations Committee that the
“SAAS is effectively managing audit trail data for modernization systems.” In August 2005, we
again reported10 problems with the SAAS. In their response to that report, IRS management
disagreed with our conclusion that audit trails for IRS modernized systems were not functioning.
IRS management explained the SAAS receives and processes audit trail transactions daily from
several modernization applications and the data could be accessed through queries or reports.

IRS business units and the TIGTA are not reviewing user activity on modernized
systems
The IRS business units and the TIGTA are not reviewing SAAS user audit trails, which
document a user’s actions on modernized systems. Specifically:
    •   IRS business unit managers are not reviewing employee transactions on modernized
        systems through the SAAS. The MA&SS organization is currently reviewing user
        activity for one application to identify employees’ accesses to their own and other
        employees’ information. The MA&SS organization is planning to train business unit


8
  The IDRS is the IRS computer system capable of retrieving or updating stored information; it works in conjunction
with a taxpayer’s account records.
9
  The Audit Trail System for Detecting Improper Activities on Modernized Systems Is Not Functioning (Reference
Number 2004-20-135, dated August 2004).
10
   Security Controls Were Not Adequately Considered in the Development and Integration Phases of Modernized
Systems (Reference Number 2005-20-128, dated August 2005).
                                                                                                           Page 6
                       Improvements Are Needed to Ensure the Use of Modernization
                                   Applications Is Effectively Audited



            employees to conduct these reviews using the SAAS and eventually to transition these
            reviews to all IRS functions. However, no timetable for the transition has been
            established. Transactions by employees on the other systems, as well as those initiated
            by users accessing systems through the IRS.gov web site, are not being reviewed.
       •    The TIGTA is unable to review modernized systems for possible UNAX violations.
            Currently, the TIGTA only reviews IDRS audit trails to identify UNAX violations, using
            the Audit Trail Lead Analysis System.
At present, the only audit trails available for IRS business unit managers and the TIGTA to
review are those for IRS employee transactions. In October 2005, the IRS ceased adding
transactions by nonemployees to the SAAS, such as those for tax filers and users of the IRS.gov
web site, to address an immediate problem of insufficient data storage and to improve the
performance of the System. These transactions are now stored in separate files in the SAAS.
MA&SS organization personnel informed us this was justified because the TIGTA and IRS
business units had not provided any requirements to review these data. In addition, these
transactions can be made available to the business units and the TIGTA once requirements are
identified to review the transactions.
Reviews of user activity are not occurring because a large amount of audit trail data in the SAAS
is not usable. In addition, reporting features that would aid users in reviewing these data are not
adequate.
User activity data are not reliable, complete, and accurate
The audit trails collected by the SAAS do not comply with the IRS’ audit trail requirements. The
data collected have significant integrity issues, rendering much of the data unreliable, inaccurate,
incomplete, and, therefore, unusable. For a record in an audit trail to be useful, certain data must
be complete and valid. These data include who initiated the transaction, when the transaction
occurred, where it occurred, and whether the transaction succeeded or failed.
We reviewed over 3 million SAAS audit trail records of modernized systems for November 2005
and identified over 24 million possible entries11 for data required by IRS policies. Of these, we
determined that 48 percent were missing data or contained inaccurate information. In particular,
we found blank entries, incomplete entries with partial numbers or text, and unexpected data
such as numbers where text is expected. In addition to the required entries, the SAAS audit trail
can store descriptive information about a transaction, which is useful in the search for UNAX
violations. We determined that, while the SAAS audit trail record has 15 places for these
descriptive entries, only 1 of the available places contained useful information. In addition to
inadequate data entries, we identified over 80,200 potentially missing audit trail records and over
3,400 corrupted audit trail records. Appendix IV presents additional details on this issue.


11
     Each audit trail record has eight entries, or places, for data required by IRS policies.
                                                                                                Page 7
                   Improvements Are Needed to Ensure the Use of Modernization
                               Applications Is Effectively Audited



Due to these data integrity issues, the MA&SS organization has not engaged IRS business units
to review employee activity on modernized systems. The data integrity issues are a result of
inaccurate and incomplete data being sent to the SAAS by modernized systems and insufficient
controls in place to ensure the audit trail data brought into the SAAS are complete and valid.
Modernized systems send audit trail data to the SAAS, which then processes and tests the data
for existence of selected information. However, the following problems with this process exist:
     •   Invalid, inconsistent, or incorrectly formatted data are sent from modernized systems.
         Many of the data integrity issues we identified can be attributed to specific modernized
         systems. In addition, IRS personnel informed us some modernization application
         projects did not adequately test the audit trail output their applications produced to verify
         that the applications were correctly generating audit trail records that met IRS
         requirements.
     •   No tests are conducted to ensure audit trail entries are appropriate and accounted for. The
         SAAS currently tests incoming audit records to ensure six types of data, such as
         username and taxpayer identifier, exist in an audit trail record and the fields are not
         blank. However, there are no SAAS requirements to test the appropriateness of audit trail
         entries or to ensure all audit records are accounted for.
     •   Failed integrity test records are not reviewed. Failed integrity test results are not
         recorded in the SAAS audit trail; instead, they are recorded in a Failed Audit table. For
         November 2005, over 620,000 records failed SAAS validity tests. This represents
         16 percent of all audit trail records sent to the SAAS for November 2005. Based on our
         discussions with IRS security personnel, the Failed Audit table is not reviewed.
         Currently, there are no SAAS requirements to provide users with features to review failed
         audit records.
During our audit, the MA&SS organization submitted a change request for the modernized
system audit trails to be revised to properly recognize user actions as well as comply with
standard formats and content. The primary focus of the request was to address inconsistencies in
how modernized systems record transaction events and the payload, or transaction content,
portion of the audit trail record. These changes were requested to be completed by June 2006.
In August 2005, we reported12 the IRS did not adequately consider security controls in the
development phase of modernized systems. Several inadequate security controls were identified,
many of which could have been addressed in the development phase of the systems. Given the
lack of robust integrity tests and the inadequacy of audit trail data being sent to the SAAS, it is
apparent sufficient emphasis was not placed on audit trails during the development and in
certification testing of modernized systems.


12
  Security Controls Were Not Adequately Considered in the Development and Integration Phases of Modernized
Systems (Reference Number 2005-20-128, dated August 2005).
                                                                                                      Page 8
                   Improvements Are Needed to Ensure the Use of Modernization
                               Applications Is Effectively Audited



Report features are not adequate for the business units and the TIGTA
Even if the modernized audit trails were reliable, it is unlikely that users of the SAAS would be
able to review them because SAAS features needed to review these data are not yet available.
The SAAS is designed to be both the replacement for the Audit Trail Lead Analysis System and
the central repository for modernized IRS systems’ audit trails. The SAAS is intended to enable
IRS business unit, TIGTA, and CSIRC users to generate reports and search audit trail records to
detect unauthorized activities and security intrusions on modernized systems. In addition, IRS
managers will be able to certify they have reviewed modernized audit trail reports for their
employees, to identify accesses and violations. These reports and functions are specified in the
SAAS requirements used to develop the System. Similar features are also available on the IDRS
On-Line Reports Services application, which aids IRS managers in identifying UNAX and other
violations on the IDRS.
However, SAAS reports and certification features have not yet been implemented. Currently,
users can search audit trail records only through user-created queries. While report features are
included in the current System requirements, they have not been implemented and do not have
completion dates assigned. This occurred in part because IRS business units have historically
placed little emphasis on reviewing audit trail data. For example, a recent TIGTA report13 found
that business unit managers were not reviewing audit trail data to detect inappropriate activity of
their employees on the IDRS.

The CSIRC does not have sufficient data with which to identify intrusions on
modernized systems
We also determined the CSIRC is performing limited reviews of system audit trails to identify
security intrusions on modernized systems. System audit trails document the system activities,
including those taken during an attack or intrusion into the system. The CSIRC is performing
some reviews of modernized system audit trails. However, these reviews are limited because
audit trail files needed by the CSIRC are not being sent or sent timely to the SAAS. Procedures
require that these files be sent daily from all modernized systems, excluding mainframe
computers, to a central server (the Log File Collector) for forwarding to the SAAS. In addition,
the files sent are not required to be retained for a sufficient period of time. These deficiencies
are a result of insufficient SAAS requirements. Specifically:
     •   Files are not being sent timely. While audit trail files from Microsoft Windows-based
         modernized system servers generally are sent as required, files from servers running the
         Sun Solaris operating system are not. Of the 26 Solaris-based modernized system
         servers, 5 sent their files daily, 18 sent their files weekly, and 3 did not send their files at
         all. While SAAS system requirements include creation of reports to identify systems that

13
 Increased Managerial Attention Is Needed to Ensure Taxpayer Accounts Are Monitored to Detect Unauthorized
Employee Accesses (Reference Number 2006-20-111, dated July 2006).
                                                                                                    Page 9
                  Improvements Are Needed to Ensure the Use of Modernization
                              Applications Is Effectively Audited



        failed to send data as required, this functionality has not been implemented and no
        completion dates have been assigned.
    •   Consolidated audit trail files are not sent. For Solaris-based computers, two sets of audit
        trail files can be created. One set contains eight individual files that record different
        system events. The other set records all events in one consolidated file and can
        potentially record more system event information. While CSIRC users would like to
        review information contained in the consolidated audit trail files, these audit trails are not
        forwarded from the Log File Collector to the SAAS for inclusion in the SAAS audit trail.
        We reviewed the Log File Collector on December 5, 2005, and identified approximately
        214 gigabytes of consolidated audit trails covering a 2-week period. These files are not
        sent to the SAAS because CSIRC personnel and SAAS contractors are not considered
        security personnel by the IRS and, therefore, are not permitted access to the necessary
        command to convert the files to a format readable by the SAAS. In addition, SAAS
        requirements do not specify that the consolidated audit trail files need to be available for
        inclusion in the SAAS.
    •   Audit trail files are not sufficiently retained. After audit trail files sent from modernized
        systems are received by the SAAS, they are kept for 1 year. Because only selected data
        from these files are incorporated into the SAAS, it is important for the IRS to retain the
        files in the event additional research on system activity needs to be performed. The
        CSIRC requires the SAAS to retain data sent from modernization systems for 6 years, but
        the requirement does not specify what type of data should be retained. The requirements
        used to develop the SAAS include only the data stored in the SAAS and not the audit trail
        files providing the data. During our review, the IRS established an informal policy to
        store audit trail files for 6 years, but no documentation formalizing this policy was
        available.

Recommendations
To ensure the SAAS can better meet the needs of its customers and audit trail data reported are
reliable, accurate, and complete, the Chief, MA&SS, should:
Recommendation 3: Reassess the requirements for SAAS audit trails, including identifying
all user requirements and the resulting SAAS system requirements needed to achieve them.
Once the reassessment is complete, requirements should be assigned completion dates. The
reassessment process must include the following requirements:
•   Additional validity tests to ensure audit trail data received are reliable and accurate.
•   Controls to ensure all audit trail records are uniquely identifiable, and completeness tests to
    ensure all audit records are accounted for.
•   Reports and queries to aid in the analysis of audit trail records that failed validity tests.
                                                                                                Page 10
                 Improvements Are Needed to Ensure the Use of Modernization
                             Applications Is Effectively Audited



•   Functionality for review and certification of employee access to taxpayer information, similar
    to the functions available through the IDRS On-Line Reports Services application.
•   Consolidated Solaris audit files that are available for inclusion in the SAAS audit trail. To do
    this, technical issues preventing these files from being incorporated into the SAAS need to be
    resolved. Until the issues are resolved, these files should be retained.
•   Retention period for source audit trail files sent from modernized systems to ensure files are
    kept for a necessary length of time.
       Management’s Response: IRS management agreed with this recommendation. The
       MA&SS organization will reassess the requirements for SAAS audit trails, including
       identifying all user requirements and the resulting SAAS system requirements needed to
       achieve them.
To ensure modernized systems send reliable, accurate, and complete audit trail information to the
SAAS, the Chief Information Officer should:
Recommendation 4: Modify modernized system audit trails to comply with SAAS standards,
ensuring data collected are valid and arranged in the proper format. This process should include
the solicitation of input from user organizations, such as the IRS business units, TIGTA, and
CSIRC, to identify their audit trail data needs.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS will provide a Project Plan that includes development of change requests for
       modification of modernization applications to provide audit trail data to, and in the
       correct format for, the SAAS based on requirements identified in the corrective action for
       Recommendation 3. The Plan will include expected implementation dates for each
       modernization application and will be based on funding and resource availability. The
       IRS plans to make incremental changes as requirements are developed.
       Office of Audit Comment: The IRS provided an implementation date of
       October 2008 for its corrective action to this recommendation. We recognize the difficult
       task the IRS faces in modifying modernized system audit trails to provide usable
       information, given their current state. However, this implementation date will leave the
       IRS without usable audit trails for more than 2 years. With this response, the IRS is
       accepting the risk that unauthorized access to taxpayer information on modernized
       systems may occur and not be detected.
To ensure new SAAS requirements are included in IRS procedures, the Chief, MA&SS, should:
Recommendation 5: After completion of the requirements reassessment, reevaluate SAAS
procedures and processes to ensure the new SAAS requirements are incorporated and
responsibilities for reviewing modernization audit trails are adequately defined. These


                                                                                           Page 11
                 Improvements Are Needed to Ensure the Use of Modernization
                             Applications Is Effectively Audited



procedures should include reviews for audit trail records that failed validity tests and transactions
by tax filers and registered users.
       Management’s Response: IRS management agreed with this recommendation.
       Once SAAS requirements are reassessed, the MA&SS organization will establish
       procedures to ensure audit trails are properly reviewed and assign staff to monitor failed
       audit trail records.




                                                                                             Page 12
                Improvements Are Needed to Ensure the Use of Modernization
                            Applications Is Effectively Audited



                                                                                    Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS’ modernized systems
generate audit logs that are saved and analyzed to detect unauthorized accesses to modernization
applications. To accomplish this objective, we:
I.     Determined whether adequate information was being captured in modernization
       application audit trails.
       A. Reviewed policies and procedures specifying system information required to be
          captured for audit trail purposes.
       B. Identified the modernization application audit trails that were processed through the
          SAAS.
       C. Determined whether modernization applications were generating required audit trail
          records by obtaining from the SAAS an extract of audit trail records for
          November 2005, which totaled over 3.6 million records, and reviewing audit trail
          settings for the CADE. Our analysis of these records identified that 48 percent of the
          required entries were not usable. We also determined that the CADE audit trail
          settings were appropriate.
       D. Assessed the impact of missing audit trail elements on the IRS’ ability to detect,
          identify, and substantiate unauthorized accesses of modernization applications.
       E. Determined why modernization application audit trails do not capture required data
          elements.
II.    Determined whether audit trails were being retained for required time periods.
       A. Reviewed policies and procedures regarding audit trails to identify storage
          requirements for audit trail data, including required retention periods.
       B. Determined whether modernization applications were retaining audit trail records for
          required time periods by analyzing audit trail settings and interviewing SAAS and
          CADE system and database administrators.
       C. Assessed the impact of absent audit trail records on the IRS’ ability to detect, identify,
          and substantiate unauthorized accesses of modernization applications.
       D. Determined why modernization application audit trails are not retained for required
          time periods.


                                                                                           Page 13
                Improvements Are Needed to Ensure the Use of Modernization
                            Applications Is Effectively Audited



III.   Determined whether audit trails were being analyzed to detect unauthorized access and
       other violations.
       A. Reviewed policies and procedures regarding audit trails to identify monitoring and
          reporting requirements for audit trail data.
       B. Determined whether user activity on modernization applications was being
          adequately monitored by reviewing current reports generated from the SAAS.
       C. Assessed the impact of inadequate monitoring of audit trails on the IRS’ ability to
          detect, identify, and substantiate unauthorized accesses of modernization applications.
       D. Determined why modernization application audit trail monitoring was not occurring.
          This step included analysis of computer records from SAAS servers for
          November and December 2005 to determine whether audit trail files were being sent
          timely to the SAAS. This step included reviewing the records for all modernized
          systems sending data to the SAAS, in particular those running the Microsoft
          Windows or Sun Solaris operating systems. Our analysis identified that Microsoft
          Windows-based modernized system servers generally sent data as required.
          However, of the 26 Solaris-based modernized system servers, 5 sent their files daily,
          18 sent their files weekly, and 3 did not send their files at all.




                                                                                         Page 14
                Improvements Are Needed to Ensure the Use of Modernization
                            Applications Is Effectively Audited



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen Mullins, Director
Kent Sagara, Acting Director
Gerald Horn, Audit Manager
Marybeth Schumann, Audit Manager
Michael Howard, Lead Auditor
David Brown, Senior Auditor
Myron Gulley, Senior Auditor




                                                                                     Page 15
               Improvements Are Needed to Ensure the Use of Modernization
                           Applications Is Effectively Audited



                                                                       Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer OS:CIO
Deputy Chief, Mission Assurance and Security Services OS:MA
Associate Chief Information Officer, Enterprise Operations OS:CIO:EO
Associate Chief Information Officer, Enterprise Services OS:CIO:ES
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Chief, Mission Assurance and Security Services OS:MA
       Director, Program Oversight Office OS:CIO:SM:PO




                                                                             Page 16
                Improvements Are Needed to Ensure the Use of Modernization
                            Applications Is Effectively Audited



                                                                                 Appendix IV

    Additional Information on the Security Audit and
              Analysis System Audit Trail

This appendix provides additional information on audit trail integrity issues for specific
modernization applications. The SAAS collects audit trail information from most modernization
applications, including:
   •   Modernized e-File (MeF): The MeF system modernizes the IRS’ existing electronic
       filing system and provides an Internet-based electronic filing application that taxpayers
       can use to file IRS forms.
   •   e-Services: The e-Services system provides several third-party tools and data collection
       processes to enhance taxpayer interaction with the IRS.
   •   Integrated Financial System (IFS): The IFS is the new IRS financial and cost accounting
       system.
   •   Internet Refund/Fact of Filing (IRFOF): The IRFOF system, also known as “Where’s
       My Refund” on the IRS.gov web site, allows IRS customers to retrieve their refund status
       as well as fact of filing information.
   •   Internet Employer Identification Number (I-EIN): The I-EIN system allows the general
       public to apply for an Employer Identification Number over the Internet and receive the
       number at the same time.
The data presented are based on reviewed SAAS data from November 2005, specifically from
the SAAS audit trail table (MODTRANS) and two additional SAAS audit trail files for users
registered through the IRS.gov web site (REGUSER) and tax filers (TAXFIL). We identified
issues with required and descriptive audit trail records as well as missing audit records.

Required audit trail entries
We reviewed over 3 million SAAS audit trail records of modernized systems for November 2005
and determined 48 percent of the data entries required by IRS policy contained missing or
inaccurate information. For each modernization application we reviewed, Table 1 lists the audit
trail requirements specified in the Internal Revenue Manual and the percentage of the entries in
the SAAS fields meeting these requirements that were unusable.




                                                                                          Page 17
                         Improvements Are Needed to Ensure the Use of Modernization
                                     Applications Is Effectively Audited



      Table 1: Percentage of Unusable Required Entries in the SAAS Audit Trail
                                                                                                                     SAAS
  Audit Trail Requirement          Field Name    MeF       e-Services         IFS        IRFOF     I-EIN    Other
                                                                                                                     Totals

 Date and time of the event       TIMESTAMP     0.0%         0.5%             0.0%        0.0%     0.0%     0.0%     0.3%
 The unique identifier
                                  USERID        0.0%         8.4%             0.0%      100.0%    100.0%    0.0%     28.0%
 initiating an action
 Type of event                    EVENTID       7.0%         48.0%            0.0%      100.0%     0.0%     0.0%     46.6%
 Origin of the request for
 identification/authentication    SRCADDR       6.2%         34.0%        83.1%         100.0%     0.0%     0.0%     50.8%
 events
 Subject of event, action
                                  VARDATA       29.9%        49.4%        100.0%          0.0%    100.0%    0.0%     51.5%
 taken
 Identity of user creating the
                                  USERID        0.0%         8.4%             0.0%      100.0%    100.0%    0.0%     28.0%
 event
 Role of user, when creating
                                  None          100.0%      100.0%        100.0%        100.0%    100.0%   100.0%   100.0%
 the event
 Success or failure of the
                                  ERRORMSG      100.0%      100.0%            0.0%      100.0%     0.0%    100.0%    78.9%
 event
                     Totals                     30.4%        43.6%        35.4%          75.0%    50.0%     25.0%    48.0%
Source: TIGTA analysis of SAAS audit trail data for November 2005.

Although we reviewed three SAAS audit trail files, the MODTRANS table is the primary audit
trail table in the SAAS. Table 2 presents the results of our assessment of the data integrity for
the MODTRANS table and displays only those records collected from that table. Currently, the
MODTRANS table includes audit trail records of IRS employees; therefore, Table 2 lists only
those modernized systems accessed by IRS employees.
     Table 2: Percentage of Unusable Required Entries in the MODTRANS Table

             Audit Trail Requirement               Field Name           MeF         e-Services    IFS      Other     Totals

Date and time of the event                        TIMESTAMP          0.0%             0.0%       0.0%      0.0%      0.0%
The unique identifier initiating an action        USERID             0.0%             0.0%       0.0%      0.0%      0.0%
Type of event                                     EVENTID            7.1%             41.3%      0.0%      0.0%      28.7%
Origin of the request for                                            6.3%             37.6%      83.1%     0.0%      50.9%
                                                  SRCADDR
identification/authentication events
Subject of event, action taken                    VARDATA            30.6%            44.7%      100.0%    0.0%      61.1%
Identity of user creating the event               USERID             0.0%             0.0%       0.0%      0.0%      0.0%
Role of user, when creating the event             None               100.0%          100.0%      100.0%    100.0%   100.0%
Success or failure of the event                   ERRORMSG           100.0%          100.0%      0.0%      100.0%    70.0%
                                 Totals                              30.5%            40.5%      35.4%     25.0%     38.9%
Source: TIGTA analysis of SAAS audit trail data for November 2005.



                                                                                                                    Page 18
                        Improvements Are Needed to Ensure the Use of Modernization
                                    Applications Is Effectively Audited



Because audit trail records from the other two tables, TAXFIL and REGUSER, are also
important, Table 3 displays percentages of unusable audit trail records collected from these two
tables. Table 3 lists only those modernized systems accessed by tax filers and registered users.
                     Table 3: Percentage of Unusable Required Entries in the
                                  TAXFIL and REGUSER Tables
              Audit Trail Requirement                  Field Name       MeF         e-Services   IRFOF    I-EIN     Totals
 Date and time of the event                           TIMESTAMP         0.0%          1.1%        0.0%    0.0%      0.6%
 The unique identifier initiating an action           USERID            0.0%          20.0%      100.0%   100.0%    57.5%
 Type of event                                        EVENTID           0.0%          57.3%      100.0%   0.0%      65.6%
 Origin of the request for                                              0.0%          29.2%      100.0%   0.0%      50.6%
                                                      SRCADDR
 identification/authentication events
 Subject of event, action taken                       VARDATA           0.0%          55.9%       0.0%    100.0%    41.4%
 Identity of user creating the event                  USERID            0.0%          20.0%      100.0%   100.0%    57.5%
 Role of user, when creating the event                None             100.0%        100.0%      100.0%   100.0%   100.0%
 Success or failure of the event                      ERRORMSG         100.0%        100.0%      100.0%   0.0%      88.3%
                                   Totals                              25.0%          47.9%      75.0%    50.0%     57.6%
Source: TIGTA analysis of SAAS audit trail data for November 2005.

Descriptive audit trail entries
In addition to the required entries, the SAAS audit trail can store descriptive information about a
transaction, which is useful in the search for UNAX violations. The SAAS audit trail record has
15 places for these descriptive entries, which are listed in Table 4.
  Table 4: MODTRANS Fields Providing Additional Details on User Transactions
                                               Fields Detailing User Transactions
                                DOLLARAMT                                              NAMECTRL
                                TAXFILERTIN                                            MFTCODE
                                  TAXPERIOD                                           FILESRCCD
                              TAXFILFILESRC                                          CASESTATCD
                              TAXFILERINTYPE                                         CAMPUSCODE
                               REASONCODE                                           CAMPUSACCESS
                               PLANNUMBER                                                 DLN
                               OUTPUTCODE
          Source: TIGTA analysis of SAAS audit trail data for November 2005.

Of these 15 fields, only the following include any information:
      •    DOLLARAMT: This field should include the dollar amount of a transaction. However,
           this field contains no actual dollar amounts.


                                                                                                                   Page 19
                 Improvements Are Needed to Ensure the Use of Modernization
                             Applications Is Effectively Audited



    •   TAXFILERTIN: This field includes the Taxpayer Identification Number used in a
        transaction.
Table 5 lists the percentage of unusable TAXFILERTIN entries in the SAAS audit trail for those
modernized systems using the TAXFILERTIN field. Those systems not included in audit trail
records of one or more SAAS tables are labeled as not applicable (N/A).
  Table 5: Percentage of Unusable TAXFILERTIN Entries in the SAAS Audit Trail
             SAAS Audit Trail Table    MeF      e-Services     IRFOF      I-EIN     SAAS Totals
            MODTRANS                  100.0%       0.6%         N/A       N/A          1.5%
            REGUSER                   100.0%       6.0%         N/A       N/A          6.0%
            TAXFIL                     N/A         4.0%        2.0%       0.0%         2.0%
            SAAS Totals               100.0%       8.3%        2.0%       0.0%         2.8%
           Source: TIGTA analysis of SAAS audit trail data for November 2005.

Missing audit trail entries
Our analysis of SAAS audit trail records also identified thousands of missing audit trail records.
Each SAAS audit trail record contains a unique, sequential identification number, which can be
used to ensure all records are accounted for. We identified over 80,200 missing identification
numbers, indicating the records associated with these numbers may be missing or are not
identifiable from the SAAS. We identified over 3,400 corrupted audit records for which the
identification number was overwritten or not in its proper place. Therefore, approximately
3,400 of the over 80,200 missing records may be in the SAAS but not identifiable due to the
record corruption. However, there may be more missing records because not all audit trail
records contained a unique identification number. Table 6 presents the applications for which
these identification numbers were unusable.
                         Table 6: Percentage of Unusable Audit Trail
                       Identification Numbers in the SAAS Audit Trail
                                               Percentage of Unusable or Missing
                Application
                                               Audit Trail Identification Numbers
               MeF                                           32.2%
               e-Services                                    42.1%
               IFS                                           0.0%
               IRFOF                                         100.0%
               I-EIN                                         0.0%
               Other                                         0.0%
               SAAS Total                                    43.0%
              Source: TIGTA analysis of SAAS audit trail data for November 2005.



                                                                                                  Page 20
    Improvements Are Needed to Ensure the Use of Modernization
                Applications Is Effectively Audited



                                                   Appendix V

Management’s Response to the Draft Report




                                                         Page 21
Improvements Are Needed to Ensure the Use of Modernization
            Applications Is Effectively Audited




                                                     Page 22
Improvements Are Needed to Ensure the Use of Modernization
            Applications Is Effectively Audited




                                                     Page 23
Improvements Are Needed to Ensure the Use of Modernization
            Applications Is Effectively Audited




                                                     Page 24
Improvements Are Needed to Ensure the Use of Modernization
            Applications Is Effectively Audited




                                                     Page 25
Improvements Are Needed to Ensure the Use of Modernization
            Applications Is Effectively Audited




                                                     Page 26
Improvements Are Needed to Ensure the Use of Modernization
            Applications Is Effectively Audited




                                                     Page 27
Improvements Are Needed to Ensure the Use of Modernization
            Applications Is Effectively Audited




                                                     Page 28
Improvements Are Needed to Ensure the Use of Modernization
            Applications Is Effectively Audited




                                                     Page 29
